NRC: OIG/97A-17 - Independent Auditors' Report and Principal Statements for the Years Ended September 30, 1997 and 1996
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 > OIG/97A-18
OIG/97A-17 - Independent Auditors' Report and Principal Statements for the Years Ended September 30, 1997 and 1996
[PDF Version (97KB) ]
February 13, 1998
Memorandum
Independent Auditors' Report
Report on Principal Statements
Report on Management Assertion About The Effectiveness of The Internal Control Structure
Reportable Conditions and Audit Follow-up
Current Year
General Ledger - Federal Financial System
Recovery Plans for Fee Systems
Recovery Plans for Payroll System
Prior Year
Report on Compliance With Laws And Regulations
Matter of Emphasis
Consistency of Other Information
Objectives, Scope and Methodology
Agency Comments
Statement of Financial Position
Statement of Operations and Changes in Net Position
Statement of Cash Flows
Statement of Budgetary Resources and Actual Expenses
Notes to Principal Statements September 30, 1997 and 1996
Note 1. Summary of Significant Accounting Policies
Note 2. Fund Balances With The U.S. Treasury
Note 3. Accounts Receivable, Net
Note 4. Advances And Prepayments
Note 5. Property And Equipment, Net
Note 6. Accounts Payable And Advances
Note 7. Accrued Payroll And Benefits
Note 8. Other Liabilities Covered by Budgetary Resources
Note 9. Other Liabilities Not Covered by Budgetary Resources
Note 10. Intragovernmental Activities
Note 11. Net Position
Note 12. Appropriated Capital Used
Note 13. Imputed Financing
Note 14. Other Revenues and Financing Sources
Note 15. Programs
Note 16. Employee Retirement Plans
Note 17. Other Expenses
Note 18. Excess or (Shortage) of Revenues and Financing Sources over Total Expenses
Note 19. Non-Operating Changes
Appendix
Memorandum
February 13, 1998
MEMORANDUM TO:
Chairman Jackson
FROM:
Hubert T. Bell
Inspector General
SUBJECT:
MEMORANDUM REPORT OIG -97A-17: RESULTS OF THE AUDIT OF U.S.
NUCLEAR REGULATORY COMMISSION'S FISCAL YEAR 1997 FINANCIAL STATEMENTS
Attached is the independent auditors' report on the U.S. Nuclear Regulatory
Commission's (NRC) Fiscal Year 1997 financial statements. The Chief Financial
Officers (CFO) Act requires the Office of the Inspector General (OIG) to annually
audit NRC's Principal Financial Statements. The report contains (1) the principal
statements and the auditors' opinion on those statements, (2) the auditors'
opinion on management's assertion about the effectiveness of internal controls,
and (3) a report on NRC's compliance with laws and regulations. Written
comments were obtained from the CFO and are included as an appendix to the independent
auditors' report.
Audit Results
The independent auditor issued an unqualified opinion on the Statement of Financial
Position, the Statements of Operations and Changes in Net Position, Cash Flows,
and Budgetary Resources and Actual Expenses.
In the opinion on management's assertion about the effectiveness of internal
controls, the auditor identified two new reportable conditions and closed two
prior-year reportable conditions. The new conditions concern (1) business continuity
(recovery) plans for financial systems, and (2) segregation of duties for
certain accounting functions. The two reportable conditions closed concern (1)
software capitalization procedures, and (2) payroll system integration and labor
cost distribution.
The report on NRC's compliance with laws and regulations disclosed that the
reportable condition relating to business continuity plans is considered a substantial
noncompliance with the Federal Financial Improvement Act of 1996. Tests of compliance
with selected provisions of other laws and regulations disclosed no other instances
of noncompliance.
The CFO's response to the issue relating to business continuity plans stated,
"The three systems mentioned in the audit report are all scheduled for replacement
within the next one to two years....The OCFO [Office of the Chief Financial
Officer] and the OCIO [Office of the Chief Information Officer] will determine
the cost effectiveness of developing continuity/contingency plans for the systems
that are to be retired or replaced." Because this is a significant issue, we
wish to reiterate and clarify our position.
The Office of Management and Budget Circular A-130 clearly requires agencies
to plan for reasonable continuity of support should normal operations be disrupted.
Although NRC plans to replace or retire several financial information systems,
the agency should not allow its business operations to continue to be at risk.
We fully understand that a strategy for cost containment is essential to any
agency decision. However, unless a system replacement or retirement is imminent
(e.g. , the current payroll system), all systems must have some type of continuity/contingency
recovery mechanism.
We did not review NRC performance data this year because NRC is in a transition
period for reporting this data. Further, over the five previous fiscal years,
OIG has reviewed the systems and verified data from which performance information
was derived. With one exception, OIG found the prior performance data to be
accurate. NRC took corrective action on that one exception. In the future, we
plan to review performance data reported in NRC's annual performance plan.
We appreciate NRC staff's cooperation and continued interest in improving financial
management within NRC.
Attachment: As stated
U. S. NUCLEAR REGULATORY COMMISSION INDEPENDENT AUDITORS' REPORT AND PRINCIPAL
STATEMENTS FOR THE YEARS ENDED SEPTEMBER 30, 1997 AND 1996
Chairman Shirley A. Jackson
U.S. NUCLEAR REGULATORY COMMISSIONWashington, DC
Independent Auditors' Report
We audited the U.S. Nuclear Regulatory Commission's (NRC) principal statements
at September 30, 1997 and for the year then ended, as required by the Chief
Financial Officers (CFO) Act of 1990.We found that the principal statements
present fairly in all material respects. We believe that our audit provides
a reasonable basis for our opinion. The principal statements of the NRC at September
30, 1996 and for the year then ended, were audited by other auditors whose report
dated March 6, 1997, expressed an unqualified opinion on those statements. Management
stated that the internal control structure in place at September 30, 1997, was
effective in (1) safeguarding assets from material loss, (2) assuring material
compliance with laws and regulations governing the use of budgetary authority
and with other relevant laws and regulations, and (3) assuring that there were
no material misstatements in the Principal Statements. We noted two reportable
conditions in the current year. One reportable condition relating to business
continuity plans is classified as a substantial noncompliance with the Federal
Financial Management Improvement Act (FFMIA), as well.
The following section outlines our conclusions and discusses the Overview of
the Reporting Entity and the scope of the audit.
Report on Principal Statements
The Principal Statements, including the accompanying notes, present fairly
in all material respects, in conformity with a comprehensive basis of accounting
other than generally accepted accounting principles, as described in Note 1
to the principal statements, NRC's:
assets, liabilities, and net position;
revenue, financing sources and expenses;
cash flows; and
budgetary resources and actual expenses.
Report on Management Assertion About The Effectiveness of The Internal
Control Structure
We evaluated management's assertion that the NRC maintained an effective internal
control structure designed to:
safeguard assets against loss from unauthorized acquisition, use or disposition;
assure the execution of transactions in accordance with laws governing
the use of budget authority and with laws and regulations that have a direct
and material effect on the Principal Statements or that are listed in the
Office of Management and Budget (OMB) Bulletin 93-06,as amended,
that could have a material effect on the Principal Statements; and
properly record, process, and summarize transactions to permit the preparation
of reliable financial statements and to maintain accountability for assets.
NRC management fairly stated that internal controls in place on September 30,
1997, provided reasonable assurance that losses, noncompliance, or misstatements,
material in relation to the Principal Statements, would be prevented and detected
on a timely basis. Management made this assertion based upon criteria established
by theFederal Managers' Financial Integrity Act of 1982 (FMFIA)and
OMB Circular A-123, Management Accountability and Control.
Reportable Conditions and Audit Follow-up
We noted two matters involving the internal control structure and its operation
that are considered reportable conditions under the standards established by
the American Institute of Certified Public Accountants and OMB Bulletin 93-06,
as amended. Although not material in relation to the Principal Statements, these
reportable conditions involve deficiencies in the internal control structure
that, in our judgment, could adversely affect the NRC's ability to ensure that
it meets the objectives of internal controls. Management considered these conditions
in making their assertion on the effectiveness of the internal controls.
Current Year
The matters listed below involve the design or operation of the internal control
structure and warrant disclosure as reportable conditions. None are classifiable
as material weaknesses.
A. Business Continuity Plans
Our assessment of the NRC's management control program included a review of
the agency's business continuity practices for major financial management systems.
The agency's major business systems include (1) the core general ledger - Federal
Financial System (FFS) serviced by the U.S. Treasury Financial Management Service
(FMS); (2) accounts receivable - billing for license fees; and (3) the payroll
system. These systems are critical to recording, summarizing and preparing financial
information. We noted that these agency systems either did not have established
test plans, did not have a documented recovery plan, or did not have a plan
that reflected the actual operations of the system.
OMB Circular A-130, Management of Federal Information Resources,
requires agencies to plan for reasonable continuity of support should normal
operations be disrupted in an emergency and assigns responsibility to the Department
of Commerce for developing guidance and standards for information processing
systems.
Guidance provided by the Department of Commerce states [that agencies] "...ensure
IT [Information Technology] systems shall develop and maintain, in an up-to-date
state, contingency and disaster recovery plans which will provide reasonable
assurance that critical data processing can be continued, or resumed quickly,
if normal operations are interrupted. The plan for large systems supporting
essential...agency functions shall be fully documented and operationally tested
at least annually...."
The individual circumstances for the lack of recovery plans are described.
General Ledger - Federal Financial System
Prior to fiscal year (FY) 1997, FFS did not have back-up recovery capabilities,
as reported by Treasury-FMS in the annual FMFIA reports. During FY 1997, the
FMS reported that additional disk storage capacity was installed at the designated
FFS back-up site in Austin, Texas. However, due to a lack of available budget
resources, the recovery plan will not be tested and validated until sometime
in FY 1998. Consequently, the condition was reported in the FMS FY 1997 FMFIA
report as: "Unable to demonstrate the ability to perform data recovery and back-up
capabilities of the FFS application in the event of a disaster."
Recovery Plans for Fee Systems
In September and December 1996, the Office of Information Resources Management
certified the major fee systems based on reviews performed by a contractor.
The work included: (1) creating security plans; (2) developing and executing
test plans; and (3) preparing certification documents.
The results of the reviews indicated that adequate security provisions were
in place. However, the contractor indicated that NRC had not developed a contingency
or business resumption plan for any of the major fee systems. As of the end
of our field work no plans have been developed in response to the conditions
reported.
Recovery Plans for Payroll System
There is no current recovery plan for the payroll system. A previously existing
recovery plan was not updated when the payroll Automatic Data Processing (ADP)
operations were transferred from the agency's prior location about four years
ago. Currently, the payroll functions are planned to move to a new payroll/personnel
system in April 1998, therefore, actions planned for developing a recovery plan
will focus on the new system.
Recommendation
The CFO should establish, for systems within the agency's control, initiatives
for designing recovery plans for all financial management systems. In providing
such guidance, the CFO should assess the priority of each system. Furthermore,
the CFO should assure that policies are issued ensuring that the design or development
of any new financial management systems, and the related security and maintenance
programs of such systems include the development of a plan which is documented
and tested. We recognize that NRC, as a user of the FFS, does not have the leverage
to compel FMS to comply with a sound disaster recovery program. Therefore, no
recommendation is offered other than continued monitoring of this condition
through the user group.
CFO's Comments
"Agency financial systems are currently undergoing major changes. The three
systems mentioned in the audit report are all scheduled for replacement within
the next one to two years. The Federal Financial System (FFS) and the accounts
receivable/license fee billing system will be replaced by the new agency-wide
resource management system STARFIRE. The Payroll System will be replaced by
the Payroll/Personnel (PAY/PERS) System. The OCFO [Office of Chief Financial
Officer] and the OCIO [Office of Chief Information Officer] will determine the
cost effectiveness of developing continuity/contingency plans for the systems
that are to be retired or replaced. The OCFO and OCIO will then jointly prepare
a plan by June 1, 1998 to develop the required continuity/contingency plans
for continuing financial systems. These plans will be developed in accordance
with OMB Circular A-130, Management of Federal Information Resources, and NRC
System Development and Life Cycle Management (SDLCM) Methodology."
Auditors' Position
OMB Circular A-130 clearly requires agencies to plan for reasonable continuity
of support should normal operations be disrupted. Although NRC plans to replace
or retire several financial information systems, the agency should not allow
its business operations to continue to be at risk. We fully understand that
NRC has a variety of initiatives in place and that a strategy for cost containment
is essential to any agency decision. The remediation plan that the CFO and the
Chief Information Officer (CIO) will develop and deliver to the Office of the
Inspector General (OIG) by June 1, 1998, must focus on managing the NRC's existing
business continuity risks and provide detailed steps and timetables that will
be used as a framework to minimize such risks. Unless a system replacement or
retirement is imminent (e.g. the current payroll system) all systems must have
continuity/contingency plans. We further believe that the framework developed
under the remediation plan should provide a basis for developing continuity/contingency
plans for any planned financial systems.
B. Segregation of Duties - FFS
NRC uses the FFS as its primary accounting system. The Division of Accounting
and Finance (DAF), OCFO is responsible for maintaining FFS, including controlling
access. FFS access is controlled by hierarchical access profiles that range
from inquiry only access to the "system administrator" profile that permits
unrestricted system access and updating security tables.
At September 30, 1997, there were 92 active FFS users with varying access levels
depending on their functions. At that time, eight DAF employees held a "lead
accountant" access profile which ranks just below the "system administrator"
profile. The "lead accountant" profile allows holders to enter transactions
and change any existing transaction or table except for the security tables.
At least three of these employees are also responsible for reconciling FFS output
to source documents or to output from other systems including the payroll system.
Thus, the employees holding "lead accountant" profiles and preparing reconciliations
are performing incompatible functions from an internal control perspective because
they are in a position to both commit errors and irregularities and to conceal
them in the course of discharging their normal duties.
The General Accounting Office's (GAO) Standards for Internal Controls in
the Federal Governmentstate "...key duties and responsibilities in authorizing,
processing, recording, and reviewing transactions should be separated among
individuals."
Recommendation
The CFO should reduce the number of persons holding the 'lead accountant' access
profile and/or implement additional compensating controls. The compensating
controls could include requiring supervisory review and certification of reconciliations
and their resulting journal vouchers.
CFO's Comments
"The OCFO will examine those persons holding the "lead accountant" access profile
and determine whether it is appropriate to make any changes to access profiles.
In addition, the OCFO will institute compensating controls consisting of review
and certification of reconciliations and their resulting journal vouchers by
the Financial Team Leader."
Auditors' Position
The actions described by the CFO should strengthen the design of controls over
segregation of duties. The CFO should advise the OIG when the controls have
been redesigned, in order that during a subsequent audit, controls can be tested
to verify implementation of the corrective action.
Prior Year
Capitalization Procedures for ADP Software Need Improvement
The FY 1996 audit disclosed a need for improvements to software capitalization
procedures. This finding represented a continuing OIG concern about NRC's financial
reporting of property. While OIG raised and the NRC has resoved similar issues
over the past few years, it was believed that the issue indicated a continuing
concern and must be identified as a reportable condition.
In the current year, NRC addressed the practice used for properly identifying
and classifying software acquisitions in a memorandum dated August 19, 1997.
The procedures outlined in the memorandum provide adequate resolution, therefore,
this issue is closed.
Payroll System Must Be Integrated With The General Ledger and Possess Labor
Distribution Capabilities.
In the FY 1995 audit, OIG reported that NRC's accounting system did not include
all of the necessary general accounting controls to produce timely and accurate
financial information needed to prepare complete financial reports as required
by OMB Bulletin 94-01, Form and Content of Agency Financial Statements.The principal weaknesses and issues that remained were:
the compatibility and integration of the NRC general ledger and subsystems
used by NRC for payroll did not provide labor cost distribution capabilities
heavy reliance on manual inputs due to the use of incompatible subsystems.
During the current year, NRC developed a year-end methodology using cost center
data to present program costs by budgetary program. Furthermore, the guidance
provided by FFMIA no longer requires integration of financial systems. Both
these actions, presentation of costs by program and the FFMIA, enable us to
close this condition.
Report on Compliance With Laws And Regulations
Our tests of compliance with selected provisions of laws and regulations disclosed
no instances of noncompliance, except the reportable condition relating to business
continuity plans which is considered a substantial noncompliance with FFMIA,
that would be reportable under Government Auditing Standards or OMB
Bulletin 93-06, Audit Requirements for Federal Financial Statements,as amended. However, the objective of our audit was not to provide an opinion
on overall compliance with laws and regulations. Accordingly, we do not express
such an opinion.
Matter of Emphasis
NRC's principal statements include reimbursable expenses of the U.S. Department
of Energy (DOE) National Laboratories. For FY 1997 and 1996, NRC's Statement
of Operations included approximately $79 and $89 million, respectively, of reimbursed
expenses, which represent approximately 14% and 17%, respectively, of total
expenses. Our audit included testing these expenses and financing sources for
compliance with laws and regulations within NRC. The work placed with DOE is
under the auspices of a Memorandum of Understanding between NRC and DOE. The
examination of DOE National Laboratories for compliance with laws and regulations
is DOE's responsibility. This responsibility was further clarified by a memorandum
of the GAO's Assistant General Counsel, dated March 6, 1995, where he opined
that "...DOE's inability to assure that its contractors' costs [National Laboratories]
are legal and proper...does not compel a conclusion that NRC has failed to comply
with laws and regulations." DOE also has the cognizant responsibility to assure
audit resolution and should provide the results of its audits to NRC.
Consistency of Other Information
The overview of the NRC, program performance output measures, and other supplemental
financial and management information sections contain a wide range of data,
some of which is not directly related to the Principal Statements. We do not
express an opinion on this information. We have, however, compared this information
for consistency with the Principal Statements and discussed the measurement
and presentation methods with NRC management. Based on this limited effort,
we found no material inconsistencies with the Principal Statements or noncompliance
with OMB guidance.
Objectives, Scope and Methodology
NRC management is responsible for (1) preparing the Principal Statements in
conformity with the basis of accounting described in Note 1 to the principal
statements, (2) establishing, maintaining, and assessing the internal control
structure to provide reasonable assurance that the broad control objectives
of FMFIA are met, and (3) complying with applicable laws and regulations including
the requirements referred to in FFMIA.
We are responsible for expressing an opinion on whether (1) the Principal Statements
are free of material misstatement and presented fairly, in all material respects,
in conformity with the basis of accounting described in Note 1 to the principal
statements, and (2) for obtaining reasonable assurance whether management's
assertion about the effectiveness of the internal control structure is fairly
stated, in all material respects, based upon criteria established by FMFIA and
OMB Circular A-123, Management Accountability and Control. As of the
date of our report, NRC management had completed its evaluation of financial
controls.
We are also responsible for testing compliance with selected provisions of
laws and regulations and for performing limited procedures with respect to certain
other information in this annual financial statement. In order to fulfill these
responsibilities, we:
examined, on a test basis, evidence supporting the amounts and disclosures
made in the Principal Statements;
assessed the accounting principles used and significant estimates made
by management;
evaluated the overall presentation of the principal statements;
obtained an understanding of the internal control structure related to
safeguarding of assets, compliance with laws and regulations including execution
of transactions in accordance with budget authority and financial reporting,
in the principal statements;
assessed control risk and tested relevant internal controls over safeguarding
of assets, compliance, and financial reporting and evaluated management's
assertion about the effectiveness of internal control;
tested compliance with selected provisions of the following laws and regulations:
Anti-Deficiency Act (Title 31 U.S.C.), National Defense Appropriation Act
(PL 101-510), Omnibus Budgetary Reconciliation Act of 1990 (PL 101-508),
Debt Collection Act of 1982 (PL 97-365), Prompt Pay Act (PL 97-177), Civil
Service Retirement Act of 1930, Civil Service Reform Act (PL 97-454), Federal
Managers' Financial Integrity Act (PL 97-255), CFO's Act (PL 101-576), Budget
and Accounting Act, Federal Financial Management Improvement Act (PL 104-208);
and,
reviewed compliance and reported in accordance with FFMIA whether the agency's
financial management systems substantially comply with the Federal financial
management system requirements, applicable accounting standards and the
U.S. Standard General Ledger at the transaction level.
We did not evaluate all internal controls relevant to operating objectives
as broadly as defined in FMFIA, such as those controls for preparing statistical
reports and those for ensuring efficient and effective operations. We limited
our internal control tests to those necessary to achieve the objectives described
in our opinion on management's assertion about the effectiveness of internal
controls. Because of inherent limitations in any internal control structure,
losses, noncompliance, or misstatements may nevertheless occur and not be detected.
Also, projection of any evaluation of the internal control structure over financial
reporting to future periods is subject to the risk that the internal control
structure may become inadequate because of changes in conditions, or that the
degree of compliance with the policies or procedures may deteriorate.
We performed our work in accordance with generally accepted auditing standards,
Government Auditing Standardsand OMB Bulletin 93-06, Audit Requirements
for Federal Financial Statements, as amended.
Agency Comments
On February 6, 1998, the CFO responded to the Inspector General on our draft
report and addressed the two recommendations noted in the report. The CFO did
not provide specific remedial actions for the substantial non-compliance relating
to business continuity. However, the CFO has indicated that a [remediation]
plan will be prepared by June 1, 1998, in conjunction with the CIO. Based on
our review of the CFO's comments, we are satisfied that the actions described
meet the intent of our recommendations and FFMIA guidelines. The CFO's comments
are appended to this report in their entirety.
Under separate cover, comments will be provided to NRC management outlining
opportunities for strengthening internal control and operating efficiency. We
appreciate NRC staff's cooperation and continued interest in improving financial
management within the agency.
This report is intended solely for the use of management of the U.S. Nuclear
Regulatory Commission and the Office of Inspector General. This restriction
is not intended to limit the distribution of this report, which upon acceptance
by the Office of Inspector General is a matter of public record.
January 23, 1998
Statement
of Financial Position
Statement
of Operations and Changes in Net Position
Statement
of Cash Flows
Statement
of Budgetary Resources and Actual Expenses
Notes to Principal Statements September 30, 1997 and 1996
Note 1. Summary of Significant Accounting Policies
A. Basis of Presentation
These principal statements were prepared to report the financial position and
results of operations of the U.S. Nuclear Regulatory Commission (NRC) as required
by the Chief Financial Officers Act of 1990. The principal statements were prepared
from the books and records of NRC in accordance with the form and content for
entity financial statements specified by the Office of Management and Budget
(OMB) in OMB Bulletins 94-01 and 97-01 and NRC accounting policies summarized
in this note. These statements are, therefore, different from the financial
reports, also prepared by the NRC pursuant to OMB directives, which are used
to monitor and control NRC's use of budgetary resources.
B. Reporting Entity/Program Name
The NRC is an independent regulatory agency of the Federal Government that
was created by the U.S. Congress to regulate the Nation's civilian use of byproduct,
source, and special nuclear materials to ensure adequate protection of the public
health and safety, to promote the common defense and security, and to protect
the environment. Its purposes are defined by the Energy Reorganization Act of
1974, as amended, along with the Atomic Energy Act of 1954, as amended, which
provide the foundation for regulating the Nation's civilian uses of nuclear
materials.
NRC has two appropriations:
31X0200 - Salaries and Expenses
31X0300 - Office of Inspector General
The 31X0200 appropriation includes approximately $11 million for FY 1997 and
for FY 1996 of funds derived from the Nuclear Waste Fund in accordance with
the provisions of Public Law 104-206. Public Law 104-134 rescinded $0.7 million
from the FY 1996 NRC Salaries and Expenses Appropriation.
In addition, $2.65 million and $0.5 million of the appropriation received by
the U.S. Agency for International Development for FY 1997 and 1996, respectively,
was transferred for the Nuclear Safety Assistance Program in Russia, Armenia,
Kazakhstan and the Ukraine which is under the control of NRC. The accompanying
financial statements of NRC include the accounts of all funds under NRC control.
C. Budgets and Budgetary Accounting
For the past 23 years, Congress has enacted no-year appropriations which are
available for obligation by NRC until expended. The Omnibus Budget Reconciliation
Act (OBRA) of 1990 requires NRC to recover approximately 100 percent of its
new budget authority, less the amount derived from the Nuclear Waste Fund, by
assessing fees. For FY 1997, Congress appropriated funds for the commercial
vitrification of high-level radioactive waste at the Hanford, Washington, site.
These funds are exempt from the requirement in OBRA for fee recovery. At the
end of the fiscal year, NRC's appropriations are reduced by the amount of revenues
collected during the fiscal year.
D. Basis of Accounting
Transactions are recorded on both an accrual accounting basis and on a budgetary
basis. Under the accrual method, revenues are recognized when earned and expenses
are recognized when a liability is incurred, without regard to receipt or payment
of cash. Budgetary accounting facilitates compliance with legal constraints
and control over the use of Federal funds.
E. Revenues and Other Financing Sources
Licensing fees and fees for inspections and other services, assessed in accordance
with OBRA, are recognized as other financing sources when earned.
For reporting purposes, appropriations are recognized as revenues (Appropriated
Capital Used) at the time expenses are accrued. At the end of the fiscal year,
appropriations recognized are reduced by the amount of assessed fees collected
during the fiscal year to the extent of new budget authority for the year. Collections
which exceed the new budget authority are held to offset subsequent years' appropriations.
Appropriations expended for property and equipment are recognized as expenses
when the asset is consumed in operations (depreciation and amortization). Appropriated
Capital Used does not include (a) appropriations used to purchase capital items;
(b) expenses incurred but not yet funded by Congress, such as workers' compensation
benefits and annual leave expenses; and (c) expenses which are paid by other
Federal agencies, such as retirement benefits. The differences between the accrual
basis recognition of appropriations expensed and the budgetary basis recognition
of outlays are presented in the Statement of Budgetary Resources and Actual
Expenses.
Miscellaneous receipts collected by NRC are not available to NRC for obligation
or expenditure. These receipts must be transferred to the U.S. Treasury when
collected.
F. Funds with the U.S. Treasury and Cash
NRC cash receipts and disbursements are processed by the U.S. Treasury. The
fund balances with the Treasury and cash are primarily appropriated funds that
are available to pay current liabilities and to finance authorized purchase
commitments. Cash balances held outside the U.S. Treasury are not material.
G. Accounts Receivable, Net of Allowance
The amounts due for receivables, except those due from Federal agencies, are
stated net of an allowance for uncollectible accounts. Since receivables from
Federal agencies are expected to be collected, there is no allowance for uncollectible
accounts. The estimate of the allowance is based on an analysis of the outstanding
balances and the application of estimated uncollectible percentages to categories
of aged receivable balances.
H. Advances
NRC makes cash payments to other Federal agencies, employees, grantees, and
contractors to provide for future NRC program expenditures. These advance payments
are recorded as assets which are reduced when NRC receives reports of expenditures
or when accruals of cost estimates are made.
I. Property and Equipment
The NRC's property and equipment consists primarily of typical office furnishings,
nuclear reactor simulators, and computer hardware and software. The agency has
no real property and loan or loan guarantee programs.
The land and buildings in which NRC operates are provided by the General Services
Administration (GSA), which charges NRC rent that approximates the commercial
rental rates for similar properties.
Property with a cost of $50,000 or more per unit and a useful life of 2 years
or more are capitalized at cost and depreciated. Other property items are expensed
when purchased. Normal repairs and maintenance are charged to expense as incurred.
Property is depreciated using the straight-line method over useful lives which
range from 5 to 20 years.
J. Prepaid and Deferred Charges
Payments in advance of the receipt of goods and services are recorded as prepaid
charges at the time of prepayment and are recognized as expenditures/expenses
when the related goods and services are received.
K. Liabilities
Liabilities represent the amount of monies or other resources that are likely
to be paid by NRC as the result of a transaction or event that has already occurred.
However, no liability can be paid by NRC absent an appropriation. Liabilities
for which an appropriation has not been enacted and for which there is no certainty
that an appropriation will be enacted are classified as Liabilities not Covered
by Budgetary Resources. Also, NRC liabilities arising from sources other than
contracts can be abrogated by the Government acting in its sovereign capacity.
L. Contingencies
NRC is a party to various administrative proceedings, legal actions, environmental
suits, and claims brought by or against it. Based on the advice of legal counsel
concerning contingencies, it is the opinion of management that the ultimate
resolution of these proceedings, actions, suits, and claims will not materially
affect the agency's financial position or results of operations.
M. Annual, Sick, and Other Leave
Annual leave is accrued as it is earned and the accrual is reduced as leave
is taken. Each year, the balance in the accrued annual leave liability account
is adjusted to reflect current pay rates.
Sick leave and other types of nonvested leave are expensed as taken.
N. Retirement Plans
NRC employees hired after December 31, 1983, are automatically covered by the
Federal Employees' Retirement System (FERS), which was implemented on January
1, 1987. Employees hired prior to that date could elect to join FERS or to remain
in the Civil Service Retirement System (CSRS). Approximately 60 percent of NRC
employees belong to CSRS and 40 percent belong to FERS. In FY 1997 and 1996,
for employees in FERS, NRC withheld 0.8 percent of base pay earnings in addition
to Federal Insurance Contribution Act (FICA) withholdings and matched the withholding
with an 11.4 percent contribution. The sum was transferred to the Federal Employees
Retirement Fund. The FY 1997 contribution resulted in approximately $622,000
being paid in excess of NRC's pension expense for the year. For employees covered
by CSRS, NRC withholds 7 percent of their base pay earnings. This withholding
is matched by NRC and the sum of the withholding and the match is transferred
to the CSRS.
On April 1, 1987, the Federal government initiated the Thrift Savings Plan
(TSP) which is a retirement savings and investment plan for employees covered
by either FERS or CSRS. For employees covered by FERS, NRC automatically contributes
one percent of base pay to their account and matches contributions up to an
additional four percent. The maximum percentage that an employee participating
in FERS may contribute is 10 percent of base pay. Employees covered by CSRS
may contribute up to five percent of their base pay, but there is no NRC matching
of the contribution. The maximum amount that either FERS or CSRS employees may
contribute to the plan in a calendar year is $9,500. The sum of the employees'
and NRC's contributions is transferred to the Federal Retirement Thrift Investment
Board.
The NRC does not report on its financial statements FERS and CSRS assets, accumulated
plan benefits, or unfunded liabilities, if any, applicable to its employees.
Reporting such amounts is the responsibility of the Office of Personnel Management.
The portion of the current and estimated future outlays for CSRS not paid by
NRC is included in NRC's financial statements as an imputed financing source
(Note 13).
O. Net Position
The NRC's net position consists of the following components:
Unexpended appropriations which include the undelivered
orders and unobligated balances of NRC's funds. All NRC appropriations remain
available for obligation until expended.
Invested capital which represents U.S. Government resources
invested in NRC's property and equipment. Increases to invested capital
are recorded when assets are acquired with direct appropriations, and decreases
are recorded as a result of the depreciation, amortization, and disposition
of capital assets.
Future funding requirements which represent (a) accumulated
annual leave earned but not taken as of the financial statement date and (b)
actual and estimated future payments to be made for worker's compensation
pursuant to the Federal Employees Compensation Act (FECA). The expense for
these accruals is not funded from current appropriations, but rather will
be funded from future appropriations and assessments.
P. Department of Energy Charges
Financial transactions between the Department of Energy (DOE) and NRC are fully
automated through the U.S. Treasury's On-Line Payment and Collection (OPAC)
System. The OPAC System allows DOE to collect amounts due from NRC directly
from NRC's account at the U.S. Treasury for goods and/or services rendered.
Project manager verification of goods and/or services received is subsequently
accomplished through a system-generated voucher approval system. The vouchers
are returned to the Division of Accounting and Finance documenting that the
charges have been accepted. For FY 1997, NRC made approximately $79.5 million
in payments to DOE in this manner for research conducted by the DOE National
Laboratories.
Q. Restatement
Certain amounts for FY 1996 have been restated to conform with the FY 1997
presentation.
Note 2. Fund Balances With The U.S. Treasury
Fund balances with the U.S. Treasury consist of the following amounts as of
September 30, 1997 and 1996:
1997
1996
Appropriated funds:
Obligated
$153,920,505
$180,045,631
Unobligated
21,257,563
28,682,412
175,178,068
208,728,043
Other fund types
1,378,243
2,020,012
$176,556,311
$210,748,055
U.S. Government cash is handled on an overall consolidated basis by the U.S.
Treasury. "Funds with Treasury" represent NRC's right to draw on the U.S. Treasury
for allowable expenditures. All amounts are available to NRC for current use.
The obligated and unobligated balances exclude amounts related to unfilled customer
orders.
Note 3. Accounts Receivable, Net
Accounts receivable, net, is composed of the following amounts as of September
30, 1997 and 1996:
Entity Assets
Intragovernmental accounts receivable consists primarily
of receivables and reimbursements due from other Federal agencies which
were $3,019,507 and $5,822,652 at September 30, 1997 and 1996, respectively.
Governmental accounts receivable is comprised of the following
amounts as of September 30, 1997 and 1996:
1997
1996
Materials and facilities fees - billed
$ 4,270,361
$ 3,532,779
Materials and facilities fees - unbilled
25,475,254
22,667,134
Other
121,624
103,295
Total accounts receivable
$29,867,239
26,303,208
Less: Allowance for uncollectible accounts
(1,012,369)
(2,223,657)
Accounts receivable, net
$28,854,870
$24,079,551
Governmental accounts receivable represents primarily amounts due for fees
assessed for licensing and inspections of nuclear facilities and radioactive
materials and other services. In the year collected, the amounts will be used
to offset NRC's appropriations.
Non-Entity Assets
Governmentalaccounts receivable, net, represents miscellaneous
amounts due from the public ($55,061 and $312,470 at September 30, 1997 and
1996, respectively), which, when collected, must be transferred to the U.S.
Treasury.
The NRC's methodology to estimate the allowance for uncollectible accounts
is based on an analysis of the outstanding balances and the application of estimated
uncollectible percentages to categories of aged receivable balances.
Note 4. Advances And Prepayments
Advances and prepayments as of September 30, 1997 and 1996, consist primarily of the following:
Entity Assets
1997
1996
Intragovernmental:
Advances - other Federal agencies
$2,325,666
$4,948,524
Prepayment - pension expenses
622,682
-
$2,948,348
$4,948,524
Governmental:
Advances
$ 512,767
$ 472,592
Advances and prepayments are recorded as assets until receipt of the goods
or services involved or until contract terms are met. When goods or services
are received or contract terms are met, the advance or prepayment is reduced
and the expense or acquired asset is recognized.
Note 5. Property And Equipment, Net
Property and equipment, net, consists of the following as of September 30, 1997 and 1996:
Service
Years
Acquisition
Value
Accumulated
Depreciation
1997 Net Book
Value
1996 Net Book
Value
Fixed Assets Class
Equipment
5-8
$ 26,587,156
$(20,400,890)
$6,186,266
$ 8,081,496
ADP software
5
45,249,731
(42,526,961)
2,722,770
4,915,553
ADP software under development
11,340,853
-
11,340,853
9,002,437
Leasehold improvements
5-20
19,181,964
(3,633,284)
15,548,680
14,625,594
Leasehold improvements in progress
-
-
-
1,564,011
Total
$102,359,704
$(66,561,135)
$35,798,569
$38,189,091
The straight-line depreciation method is used for all classes of fixed assets.
Depreciation expense for FY 1997 and 1996 was $6,462,011 and $8,540,608,
respectively.
The land and buildings occupied by NRC are provided by GSA. For FY 1997 and
1996, GSA charged NRC $19,499,176 and $24,100,381, respectively, for the use
of these facilities based on a rental fee which is to approximate the commercial
rates for similar properties.
Note 6. Accounts Payable And Advances
Accounts payable and advances consist of the following as of September 30,
1997 and 1996:
1997
1996
Intragovernmental:
Accounts payable
Department of Energy
$ 7,079,111
$ 9,368,752
Other Federal agencies
5,331,554
2,282,932
12,410,665
11,651,684
Advances
365,231
153,813
$12,775,896
$11,805,497
Governmental:
Accounts payable
Vendors payable
$19,474,528
$19,743,864
Contract holdbacks
1,680,755
1,485,423
$21,155,283
$21,229,287
The vendors payable are all current. Current payables represent amounts which
are expected to be paid within the fiscal year following the reporting date.
Note 7. Accrued Payroll And Benefits
Accrued payroll and benefits as of September 30, 1997 and 1996, consists of:
1997
1996
Accrued personnel services
$ 10,629,617
$ 9,824,164
Accrued benefits
1,820,771
1,703,683
$12,450,388
$11,527,847
Accrued payroll and benefits represent wages and benefits which have been earned
but not paid as of the financial statement date.
Note 8. Other Liabilities Covered by Budgetary Resources
Other liabilities as of September 30, 1997 and 1996, include:
1997
1996
Governmental:
Liability for deposit funds
$1,126,887
$1,554,395
Advances from others
4,398,632
5,589,264
$5,525,519
$7,143,659
The liability for deposit funds consists primarily of liabilities arising from
payroll deductions and tax withholdings. Advances from others consists of funds
primarily from foreign governments for the participation in cooperative research
programs.
1997
1996
Intragovernmental:
Liability to offset net accounts receivable for fees assessed
$30,699,637
$26,206,946
Liability to offset net miscellaneous accounts receivable
55,059
312,698
$30,754,696
$26,519,644
The liability to offset the net accounts receivable for fees assessed represents
amounts which, when collected, will be transferred to the U.S. Treasury to offset
NRC's appropriations in the year collected.
The liability to offset net miscellaneous accounts receivable represents amounts
which will be reverted to the U.S. Treasury when collected.
All other liabilities except advances from others are current. Current liabilities
represent amounts which are expected to be paid within the fiscal year following
the reporting date. Advances from others may not be liquidated in the fiscal
year following the reporting date.
Note 9. Other Liabilities Not Covered by Budgetary Resources
Unfunded liabilities as of September 30, 1997 and 1996, include:
1997
1996
Governmental:
Accrued annual leave
$25,905,986
$25,359,485
Accrued workers' compensation:
Benefits paid
1,700,857
1,476,502
Estimated future benefits
9,029,000
5,875,000
$ 36,635,843
$32,710,987
Accrued annual leave represents the amount of annual leave earned by NRC employees
but not yet taken. Accrued workers' compensation includes: (a) FECA benefits
paid by the Department of Labor (DOL) on NRC's behalf which had not been billed
to or paid by NRC as of September 30, 1997 and 1996, and (b) an actuarial estimate
for future disability benefits. The FY 1997 future workers' compensation estimate
was generated by DOL from an application of actuarial procedures developed to
estimate the liability for FECA, which includes the expected liability for death,
disability, and medical and miscellaneous costs for approved compensation cases.
The liability was calculated using historical benefit payment patterns related
to a specific incurred period to predict the ultimate payments related to that
period. These projected annual benefit payments were discounted to present value.
Accrued annual leave and accrued workers' compensation are not funded by current
or prior years' appropriations and assessments. Funding will be provided from
future years' appropriations and assessments (see Note 11).
Note 10. Intragovernmental Activities
The NRC's financial activities interact with and are dependent upon those of
the Federal Government as a whole. Other Federal agencies make financial decisions
and report certain financial matters on behalf of all Federal agencies. The
practice of having Federal agencies record or report only those government wide
financial matters for which they are directly responsible is consistent with
generally accepted accounting principles for Federal agencies which seek to
identify financial matters to the department or agency that has been granted
budget authority and resources to manage them. Activities which are performed
or reported by other Federal agencies in which NRC is indirectly involved are
as follows:
The NRC funds a portion of its employee pension benefits under the CSRS
and the FERS (Note 16). The portion not funded by NRC is included in NRC's
financial statements as an imputed financing source (Note 13). The NRC does
not disclose actuarial data with respect to accumulated plan benefits, plan
assets, or the unfunded pension liability relative to its employees. Reporting
of these amounts is the responsibility of the Office of Personnel Management.
In addition, the NRC makes contributions to the TSP on behalf of its employees.
The NRC does not have control over the plan's assets. The TSP is administered
by the National Finance Center of the Department of Agriculture.
Certain legal matters to which NRC may be a named party are administered,
and in some cases litigated, by other Federal agencies. Amounts paid under
any decision, settlement, or award pertaining thereto are generally funded
through the U.S. Treasury.
In most cases, claims (including personal injury claims) are administered
and resolved by the Department of Justice, and any amounts necessary for resolution
are obtained from a special fund maintained by the U.S. Treasury. Any legal
actions for workers' compensation claims brought by NRC employees fall under
FECA, which is administered by DOL's Employment Standards Administration.
The cost of administering, litigating, and settling these legal matters has
not been allocated to individual Federal agencies.
Interest on borrowings of the U.S. Treasury is not included as a cost to
NRC's programs and is not included in the accompanying financial statements.
Note 11. Net Position
The net position consists of the following as of September 30, 1997 and 1996:
1997
1996
Unexpended appropriations:
Unobligated
$ 25,683,385
$ 34,765,076
Undelivered orders
103,601,697
133,392,834
129,285,082
168,157,910
Invested capital
35,798,569
38,189,091
Future funding requirements (Note 9)
(36,635,843)
(32,710,987)
$128,447,808
$173,636,014
Unexpended appropriations include (a) unobligated appropriation balances and
(b) undelivered orders, which are amounts which have been obligated but not
yet expended. The unobligated appropriations balance does not include $4,306,364
and $6,262,153 in unfilled customer orders - unobligated as of September 30,
1997 and 1996, respectively. The undelivered orders balance does not include
$4,425,821 and $6,082,665 in unfilled customer orders - obligated as of September
30, 1997 and 1996, respectively.
Invested capital represents the net investment of the U.S. Government appropriations
expended for NRC's capitalized property and equipment.
Future funding requirements represent the amount of future funding needed to
pay the accrued unfunded expenses as of September 30, 1997 and 1996. These accruals
are not funded from current or prior appropriations and assessments, but rather
should be funded from future appropriations and assessments. Accordingly, future
funding requirements have been recognized for these expenses that will be paid
from future appropriations (See Note 9).
Note 12. Appropriated Capital Used
Appropriated capital used, a financing source, is recognized to the extent
that appropriated funds have been consumed less the amount collected from fees
assessed for licensing, inspections, and other services. During FY 1997 and
1996, $458.6 million and $454.0 million, respectively, were collected from fees
assessed for licensing, inspections, and other services. OBRA requires NRC to
recover approximately 100 percent of its new budget authority, less the amount
appropriated from the Nuclear Waste Fund and appropriated for work at the Hanford,
Washington, site, by assessing fees. At the end of the fiscal year, appropriations
recognized are reduced by the amount of assessed fees collected during the fiscal
year to the extent of new budget authority for the year. Collections which exceed
the new budget authority are held to offset subsequent years' appropriations.
For FY 1997 and 1996, $458.6 million and $454.0 million, respectively, of collections
were used to reduce the fiscal year's appropriations recognized:
1997
1996
Appropriated funds consumed
$ 520,713,350
$ 506,886,420
Less: Collection from fees assessed
(458,626,753)
(454,049,125)
$ 62,086,597
$ 52,837,295
The appropriated capital used for FY 1997 and 1996 includes $41,263,348 and
$34,188,747, respectively, of available funds from prior years (Note 19).
Note 13. Imputed Financing
In accordance with Statement of Federal Financial Accounting Standards (SFFAS)
Number 5, Accounting for Liabilities of the Federal Government, the
Statement of Operations and Changes in Net Position includes an imputed financing
source of $19,976,493 and $20,478,243 for FY 1997 and 1996, respectively. The
imputed financing source represents the service costs related to NRC employees'
post-employment benefits which are paid by the Office of Personnel Management,
as follows:
1997
1996
Civil Service Retirement System
$13,156,011
$14,525,205
Federal Employee Health Benefit
6,788,439
5,921,303
Federal Employee Group Life Insurance
32,043
31,735
$19,976,493
$20,478,243
Note 14. Other Revenues and Financing Sources
Other revenues and financing sources for September 30, 1997 and 1996, were:
1997
1996
Fees for licensing, inspection, and other services
$463,333,946
$439,416,104
Appropriation reimbursements
8,311,063
9,842,179
Other miscellaneous receipts
6,055,409
2,925,845
Gain on disposition of assets
3,676
-
$477,704,094
$452,184,128
Note 15. Programs
The Statement of Budgetary Resources and Actual Expenses contains operating
expenses by program for FY 1997. Comparative data for FY 1996 is not available.
The description of NRC's five programs is as follows:
Regulatory Program encompasses all NRC efforts to ensure
that the operation of commercial and nonpower nuclear reactor facilities
and all NRC-regulated aspects of nuclear fuel cycle facilities; nuclear
materials licensing; nuclear waste transport, storage, and disposal; and
decommissioning activities are conducted in a manner that provides reasonable
assurance of adequate protection of public health and safety, as required
by the Atomic Energy Act of 1954 and other relevant laws.
Regulatory Effectiveness Program helps ensure adequate
protection of the public health and safety, as required by the Atomic Energy
Act of 1954, by providing the Commission with the technical bases for regulatory
decisions for all regulatory programs.
Management and Support Program encompasses NRC central
policy direction, legal advice for the Commission, analysis of long-term
policy issues, administrative proceedings review and advice, liaison with
outside constituents and other government agencies, financial management,
all administrative and logistical support, information resources management,
executive management services for the Commission, personnel and training,
international programs, and matters involving small and disadvantaged businesses
and civil rights.
Regulation of DOE Programinvolves the continued commitment
of DOE and NRC to resolve issues of concern to either agency that relate
to the regulation of nuclear facilities, projects, and activities in the
protection of public health and safety and the environment.
Inspector General Programindependently evaluates the agency's
programs and operations to ensure their efficiency and effectiveness and
investigates allegations of fraud, waste, and abuse.
Note 16. Employee Retirement Plans
The NRC's contributions for employee retirement plans for FY 1997 and 1996
were as follows:
1997
1996
Civil Service Retirement System
$ 8,963,175
$ 9,066,506
Federal Employees' Retirement System
10,174,861
9,476,956
Federal Insurance Contribution Act
9,850,629
6,078,868
Thrift Savings Plan
4,648,337
3,754,354
$33,637,002
$28,376,684
Data on the actuarial present value of accumulated benefits, assets available
for benefits, and unfunded pension liability are maintained by other Federal
agencies and are not allocated to individual departments and agencies. The portion
of the current and estimated future outlays for CSRS not paid by NRC is included
in NRC's financial statements as an imputed financing source (Note 13).
Note 17. Other Expenses
Other expenses as of September 30, 1997 and 1996, consist of:
1997
1996
Loss on disposal of property
$ 613,338
$ 41,403
Bad debt expense
39,792
(24,302)
$ 653,130
$ 17,101
Note 18. Excess or (Shortage) of Revenues and Financing Sources over Total
Expenses
The excess or (shortage) of revenues and financing sources over total expenses
represents expenses not covered by budgetary resources for the years ended September
30, 1997 and 1996, and consists of:
1997
1996
Accrued annual leave
$ (546,501)
$ (795,701)
Accrued workers' compensation
(3,378,357)
(862,828)
$(3,924,858)
$(1,658,529)
Expenses not covered by budgetary resources are not funded from current appropriations
but are to be funded from future appropriations and assessments.
Note 19. Non-Operating Changes
Non-operating changes for the fiscal years ended September 30, 1997 and 1996,
consist of the following:
1997
1996
Change in unexpended appropriations
$(38,872,829)
$(35,202,426)
Change in invested capital
(2,390,519)
1,013,679
$(41,263,348)
$(34,188,747)
Appendix
February 6, 1998
MEMORANDUM TO:
Hubert T. Bell
Inspector General
FROM:
Jesse L. Funches
Chief Financial Officer
SUBJECT:
DRAFT AUDIT REPORT - AUDIT OF THE NUCLEAR REGULATORY COMMISSION'S FISCAL
YEAR 1997 FINANCIAL STATEMENTS
We have reviewed the draft audit report of the Nuclear Regulatory Commission's
FY 1997 financial statements. There are two reportable conditions and recommendations.
Our comments are:
Recommendation 1: The CFO should establish, for systems
within the agency's control, initiatives for designing recovery plans for all
financial managements systems. In providing such guidance, the CFO should assess
the priority of each system. Furthermore, the CFO should assure that policies
are issued ensuring that the design or development of any new financial management
systems, and the related security and maintenance programs of such systems include
the development of a plan which is documented and tested. We recognize that
NRC, as a user of the FFS, does not have the leverage to compel FMS to comply
with a sound disaster recovery program. Therefore, no recommendation is offered
other than continued monitoring of this condition through the user group.
Response: Agency financial systems are currently
undergoing major changes. The three systems mentioned in the audit report are
all scheduled for replacement within the next one to two years. The Federal
Financial System (FFS) and the accounts receivable/license fee billing system
will be replaced by the new agency-wide resource management system STARFIRE.
The Payroll System will be replaced by the Payroll/Personnel (PAY/PERS) System.
The OCFO and OCIO will determine the cost effectiveness of developing continuity/contingency
plans for the systems that are to be retired or replaced. The OCFO and OCIO
will then jointly prepare a plan by June 1, 1998, to develop the required continuity/contingency
plans for continuing financial systems. These plans will be developed in accordance
with OMB Circular A-130, Management of Federal information Resources, and the
NRC System Development and Life Cycle Management (SDLCM) Methodology.
Recommendation 2: The CFO should reduce the number
of persons holding the "lead accountant" access profile and/or implement additional
compensating controls. The compensating controls could include requiring supervisory
review and certification of reconciliations and their resulting journal vouchers.
CONTACT: Barbara K. Gusack, OCFO/DAF/GAB
415-6054
Response: The OCFO will examine those persons holding
the "lead accountant" access profile and determine whether it is appropriate
to make any changes to access profiles. In addition, the OCFO will institute
compensating controls consisting of review and certification of reconciliations
and their resulting journal vouchers by the Financial Team leader.
We appreciate the opportunity to respond to the draft audit report.
cc:
A. Galante, CIO
T. Barchi, OIG/AIGA
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees